TABLE OF CONTENTS



PREFACE                                                    i

STANDARDS

   A.     Competency                                       1
   B.     Independence                                     3
   C.     Professional Judgment                            9
   D.     Quality Control                                 11
   E.     Planning                                        12
   F.     Data Collection and Analysis                    15
   G.     Evidence                                        17
   H.     Records Maintenance                             19
   I.     Timeliness                                      20
   J.     Fraud, Other Illegal Acts, and Abuse            21
   K.     Reporting                                       23
   L.     Follow-up                                       25
   M.     Performance Measurement                         26
   N.     Working Relationships and Communication         26

APPENDICES

   1.     Guide for Core Competencies for Inspection
          Organizations and Inspectors                    29

   2.     Guide for General Skill Levels for Inspectors   32
PREFACE


W
             ithin the Inspector General community, inspections have
            long afforded organizations a flexible mechanism for
            optimizing resources by utilizing a multidisciplinary staff,
expanding Department/Agency coverage, and using alternative review
methods and techniques. An inspection is defined as a process that
evaluates, reviews, studies, and/or analyzes the programs and activities
of a Department/Agency for the purposes of providing information to
managers for decisionmaking; making recommendations for
improvements to programs, policies, or procedures; and identifying
where administrative action may be necessary. Inspections may be
used to provide factual and analytical information; monitor compliance;
measure performance; assess the efficiency and effectiveness of
programs and operations; share best practices; and inquire into
allegations of fraud, waste, abuse, and mismanagement. The inspection
function at each Department/Agency is tailored to the unique mission
of the respective Department/Agency. For example, at the Department
of State, inspections primarily focus on the adequacy of management
of programs and activities in each of the U.S. embassies and consulates
overseas, as well as in each bureau or major operating unit of the
Department; whereas at the Department of Veterans Affairs,
inspections primarily focus on evaluating the quality of patient care
provided to our Nation’s veterans. As another example, at the
Department of Health and Human Services, the majority of inspections
focus on preventing fraud, waste, and abuse in the Medicare and
Medicaid programs.

Thus, to be responsive to the needs of the Inspector General
community, it is important that the standards established for conducting
inspections not be overly prescriptive. Otherwise, the very flexibility
that makes an inspection such a valuable tool is lost. With that in
mind, these standards have been developed as a framework for
performing inspection work. These standards are broad enough to



January 2005/Quality Standards for Inspections                             i
     take into consideration the wide variety of inspections that exist
     throughout the Inspector General community, as well as the
     requirements of the various offices that perform inspections, while
     remaining precise enough to provide assurances that all inspection
     processes and products are subject to basic general and qualitative
     standards. It is the responsibility of each Office of Inspector General
     to develop internal written procedures to guide the actual conduct of
     inspection work. These procedures should include the appropriate
     controls necessary to ensure compliance with the “Quality Standards
     for Inspections,” as well as the Inspector General Act of 1978, as
     amended, and any other legislation or regulations applicable to an
     organization’s operations.

     The President’s Council on Integrity and Efficiency and the Executive
     Council on Integrity and Efficiency endorse the need for “Quality
     Standards for Inspections” and encourage the consistent application
     of these standards throughout the Inspector General community. The
     standards are reviewed periodically to ensure their continuing relevancy
     and sufficiency.




ii                           PCIE/ECIE Inspection and Evaluation Committee
QUALITY STANDARDS FOR INSPECTORS
Inspection organizations should strive to conduct their operations in
the most efficient and effective manner possible, which serves to
enhance the credibility of the organizations. The following standards
are established by the President’s Council on Integrity and Efficiency
(PCIE) and the Executive Council on Integrity and Efficiency (ECIE)
to guide the conduct of all inspection work performed by Offices of
Inspector General (OIGs). As used throughout these standards, the
term “inspection” includes evaluations, inquiries, and similar types of
reviews that do not constitute an audit or a criminal investigation. The
term “inspector” is used generically to refer to the individual conducting
such work.

A.      COMPETENCY

        The standard for inspection work is:


                     The staff assigned to perform
                  inspection work should collectively
                     possess adequate professional
                  competency for the tasks required.


        The inspection organization needs to ensure that the personnel
        conducting an inspection collectively have the knowledge,
        skills, abilities, and experience necessary for the assignment,
        which should include the following:

             1. Knowledge of evaluation methodologies; familiarity
                with the concepts, processes, and assumptions of the
                program or activity being inspected; the capacity to
                conduct a broad interdisciplinary inquiry; knowledge
                of qualitative and quantitative analysis; writing and oral

January 2005/Quality Standards for Inspections                               1
            briefing skills; information technology related
            capabilities; and knowledge of Inspector General
            statutory requirements and directives.

        2. The ability to develop a working familiarity with the
           organizations, programs, activities, and/or functions
           identified for inspection. When reviewing technical
           or scientific topics, it may be appropriate to use the
           services of a subject matter expert. Expertise may
           be determined by the individual having a related
           degree, license, certification, experience, etc.

        3. Managerial skills for supervisors, team leaders, and
           lead inspectors.

    The Inspector General community has developed a guide
    regarding core competencies for inspection organizations and
    inspectors, as well as a guide for general skill levels for
    inspectors, which are included as appendices to this document.
    Inspection organizations should have a process for recruitment,
    hiring, continuous development, and evaluation of staff to assist
    the organization in maintaining a workforce that has adequate
    competency. The nature, extent, and formality of the process
    will depend on various factors, such as the size of the inspection
    organization, its work, and its structure. These factors will
    also affect the staffing needs of an organization. For example,
    an inspection organization may need to employ personnel or
    hire specialists who are knowledgeable, skilled, or experienced
    in such areas as accounting, statistics, law, engineering,
    information technology, public administration, economics, or
    social sciences.

    OIGs should strive to provide inspectors with 80 hours of
    training biennially, but should minimally provide 40 hours of
    training biennially. Appropriate training may include evaluation/


2                   PCIE/ECIE Inspection and Evaluation Committee
        inspection training, such as program analysis, writing, technical
        training; and career development training, such as in managerial
        skills.

        OIGs should have internal policies and procedures for issuance
        and utilization of credentials.

B.      INDEPENDENCE

        The standard for inspection work is:


                  In all matters relating to inspection
                work, the inspection organization and
                  each individual inspector should be
                free both in fact and appearance from
                personal, external, and organizational
                     impairments to independence.


        Inspectors and inspection organizations have a responsibility
        to maintain independence so that opinions, conclusions,
        judgments, and recommendations will be impartial and will be
        viewed as impartial by knowledgeable third parties. The
        independence standard should be applied to anyone in the
        organization who may directly influence the outcome of an
        inspection and includes both Government and private persons
        performing inspection work for an OIG.

        Inspection organizations and inspectors should be alert to
        possible impairments to independence and should avoid
        situations that could lead reasonable third parties with
        knowledge of the relevant facts and circumstances to conclude
        that the inspection organization or inspectors are not




January 2005/Quality Standards for Inspections                              3
    independent and, thus, are not capable of exercising objective
    and impartial judgment in conducting and reporting on an
    inspection. Impairments to independence, either in fact or
    appearance, need to be resolved in a timely manner. The
    actions of OIG staff should adhere to the “Standards for
    Ethical Conduct for Employees of the Executive Branch” and
    Federal conflict of interest laws. Inspection organizations
    should have internal policies and procedures for reporting and
    resolving real or perceived impairments to independence.

    Inspection organizations that provide other professional
    services should consider whether providing these services
    creates an independence impairment either in fact or
    appearance that adversely affects their independence for
    conducting inspections. Inspection organizations should not
    (1) provide noninspection services that involve performing
    management functions or making management decisions and
    (2) inspect their own work or provide noninspection services
    in situations where the noninspection services are significant/
    material to the subject matter of inspections. Inspection
    organizations that provide other professional services should
    refer to the “Government Auditing Standards” issued by the
    United States Government Accountability Office, which,
    although specific to auditing, provides detailed guidance
    relevant to handling the provision of such services.

    Inspection organizations and inspectors need to consider three
    general types of impairments to independence—personal,
    external, and organizational. If one or more of these
    impairments affect an inspection organization’s or an
    inspector’s capability to perform work and report results
    impartially, that organization or inspector should either decline
    to perform the work or, if the situation necessitates that the
    work cannot be declined, the impairment(s) should be reported
    in the scope section of the inspection report.


4                  PCIE/ECIE Inspection and Evaluation Committee
            1. Personal Impairments

                Personal impairments of staff members result from
                relationships and beliefs that might cause inspectors
                to limit the extent of an inquiry, limit disclosure, or
                weaken or slant inspection findings in any way.
                Inspectors are responsible for notifying the appropriate
                officials within their respective inspection organizations
                if they have any personal impairment to independence.
                It is impossible to identify every situation that could
                result in a personal impairment, but the following are
                examples of personal impairments:

                    (a) Having an immediate or close family member
                        who is a director or officer of the entity being
                        inspected or is in a position with the entity to
                        exert direct and significant influence over the
                        entity or the program being inspected.
                        Immediate or close family members include
                        spouses, spouse equivalents, dependents
                        (whether or not related), parents, siblings, and
                        nondependent children.

                    (b) Having direct or significant/material indirect
                        financial interest in the entity or program being
                        inspected.

                    (c) Having responsibility for managing an entity
                        or decisionmaking that could affect operations
                        of the entity or program being inspected; for
                        example, as a director, officer, or other senior
                        member of the entity, activity, or program
                        being inspected or as a member of
                        management in any decisionmaking,
                        supervisory, or ongoing monitoring function



January 2005/Quality Standards for Inspections                               5
               for the entity, activity, or program under
               inspection.

           (d) Having involvement with the preparation,
               maintenance, or authorization of official
               records/documents associated with the entity,
               activity, or program under inspection.

           (e) Having preconceived ideas toward
               individuals, groups, organizations, or
               objectives of a particular program that could
               bias the inspection.

           (f) Having biases, including those induced by
               political, ideological, or social convictions, that
               result from employment in or loyalty to a
               particular type of policy, group, organization,
               or level of government.

           (g) Seeking employment with an inspected
               organization during the conduct of the
               inspection.

    2. External Impairments

       Factors external to the OIG may restrict work or
       interfere with an inspector’s ability to form
       independent and objective opinions and conclusions.
       External impairments to independence occur when
       inspectors are deterred from acting objectively and
       exercising professional skepticism by pressures, actual
       or perceived, from management or employees of the
       inspected entity or oversight organizations. For
       example, if any of the following conditions exist, the
       OIG would not have complete freedom to make an


6             PCIE/ECIE Inspection and Evaluation Committee
                independent and objective judgment, which could
                adversely affect the work:

                (a)      External interference or influence that could
                       improperly or imprudently limit or modify the
                       scope of an inspection or threaten to do so,
                       including pressure to reduce inappropriately the
                       extent of work performed in order to reduce
                       costs or fees.

                (b)    External interference with the selection or
                       application of inspection procedures or in the
                       selection of transactions to be examined.

                (c)     Unreasonable restrictions on the time allowed
                       to complete an inspection or issue a report.

                (d) External interference in the assignment,
                    appointment, or promotion of inspection
                    personnel.

                (e)   Restrictions on funds or other resources provided
                      to the inspection organization that adversely
                      affect the inspection organization’s ability to
                      carry out its responsibilities.

                (f)    Authority to inappropriately overrule or
                       influence an inspector’s judgment as to the
                       appropriate content of the report.

                (g)    Threat of replacement over a disagreement with
                       the contents of an inspection report, an
                       inspector’s conclusions, or the application of
                       criteria.




January 2005/Quality Standards for Inspections                            7
              (h) Influences that jeopardize an inspector’s continued
                  employment for reasons other than incompetence,
                  misconduct, or the need for inspection services.

              When external factors restrict an inspection or interfere
              with an inspector’s ability to form objective opinions
              and conclusions and the inspector cannot remove the
              limitation, the inspector should report the limitation in
              accordance with the respective OIG’s internal policies
              and procedures.

    3. Organizational Impairments

              Inspection organizations need to be free from
              organizational impairments to independence. An
              organization’s ability to perform work and report the
              results impartially can be affected by its place within a
              Department/Agency and the structure of the
              Department/ Agency. Inspection organizations within
              OIGs established by the Inspector General Act of
              1978, as amended, derive organizational
              independence from the statutory safeguards to
              independence established by the Act.

              However, if an inspector believes there is an
              organizational impairment that could affect his/her
              inspection work, he/she should report the matter in
              accordance with the respective OIG’s internal policies
              and procedures.




8                    PCIE/ECIE Inspection and Evaluation Committee
C.      PROFESSIONAL JUDGMENT

        The standard for inspection work is:

                  Due professional judgment should be
                    used in planning and performing
                 inspections and in reporting the results.


        This standard requires inspectors to exercise reasonable care
        and diligence and to observe the principles of serving the public
        interest and maintaining the highest degree of integrity,
        objectivity, and independence in applying professional
        judgment to all aspects of their work. Due professional
        judgment requires that:

        1. OIGs follow professional, Department/Agency, and
           organizational standards and that inspection work be in
           accordance with all applicable laws, rules, and regulations;

        2. Inspections are conducted in a timely, diligent, and
           complete manner, using appropriate methods and
           techniques;

        3. Evidence is gathered and reported in a fair, unbiased, and
           independent manner and report findings, conclusions, and
           recommendations are valid and supported by adequate
           documentation;

        4. At all times the actions of OIG staff conform to high
           standards of conduct, including adherence with the
           “Standards for Ethical Conduct for Employees of the
           Executive Branch” and Federal conflict of interest laws;
           and

        5. OIG staff coordinates inspection results with appropriate
           officials.
January 2005/Quality Standards for Inspections                              9
     Inspectors should use professional judgment in selecting the
     type of work to be performed and the standards that apply to
     the work; defining the scope of work; selecting the inspection
     methodology; determining the type and amount of evidence
     to be gathered; and choosing the tests and procedures for
     their work. Professional judgment also should be applied
     when actually performing the tests and procedures and when
     evaluating and reporting the results of the work.

     In conducting an inspection, inspectors may employ the
     methods of inquiry most appropriate for the object of study.
     They may rely on the work of others after satisfying themselves
     regarding the quality of the work by appropriate means. Such
     work may include work performed by other OIG units, the
     Government Accountability Office, Department/Agency
     internal studies, Department/Agency contracted studies, or
     studies by private research and academic organizations.

     Professional judgment requires inspectors to exercise
     professional skepticism, e.g., questioning and critically
     assessing evidence, throughout the inspection. Inspectors
     should use the knowledge, skills, and experience called for
     by their profession to diligently gather evidence and objectively
     evaluate its sufficiency, competency, and relevancy. Inspectors
     should seek persuasive evidence and should not presume
     honesty or dishonesty on the part of those who are providing
     evidence.

     The exercise of professional judgment allows inspectors to
     obtain reasonable assurance that material misstatements or
     significant inaccuracies in data will likely be detected if they
     exist. However, absolute assurance is not attainable because
     of the nature of evidence and the characteristics of fraud.
     Therefore, while this standard places responsibility on each
     inspector and inspection organization to exercise professional
     judgment in planning and performing an assignment, it does

10                   PCIE/ECIE Inspection and Evaluation Committee
        not imply unlimited responsibility or infallibility on the part of
        either the individual inspector or the inspection organization.

D.      QUALITY CONTROL

        The standard for inspection work is:

                   Each OIG organization that conducts
                   inspections should have appropriate
                  internal quality controls for that work.


        Each OIG organization that conducts inspections should
        develop and implement written policies and procedures for
        internal controls over its inspection processes/work to provide
        reasonable assurance of conformance with organizational
        policies and procedures, the “Quality Standards for
        Inspections,” and other applicable policies and procedures.
        The nature and extent of these internal controls and their
        associated documentation will be dependent on a number of
        factors, such as the size and structure of the organization and
        cost-benefit considerations. As appropriate, organizations
        should seek to have quality control mechanisms that provide
        an independent assessment of inspection processes/work.
        Documentation of the execution of quality control mechanisms
        should be retained for a sufficient period of time to allow for
        evaluation and use in conjunction with other quality control
        mechanisms.

        A key aspect of inspection quality control is adequate
        supervision. Supervision provides important judgment and
        an additional level of oversight to the work done by
        subordinate, often less experienced, staff. Supervisors should
        work with inspection team members to reach agreement as to
        the work the team will do and how they are to proceed. The
        team also should have a clear understanding of the purpose of

January 2005/Quality Standards for Inspections                               11
          the inspection and what it is expected to accomplish.
          Supervisory reviews help ensure that:

                  1.    The inspection is adequately planned;

                  2.    The inspection work plan is followed, unless
                         deviation is justified and authorized;

                  3.    The inspection objectives are met; and

                  4.    The inspection findings, conclusions, and
                         recommendations are adequately supported
                        by the evidence.

     E.   PLANNING

          The standard for inspection work is:


              Inspections are to be adequately planned.


          The standard for inspection planning is intended to ensure
          that appropriate care is given to selecting inspection topics
          and preparing to conduct each inspection, to include
          coordinating inspection work and avoiding duplication. The
          selection of an inspection topic should consider the relevancy
          of the topic and the significance/impact of potential outcomes,
          and these points should be of continuing consideration
          throughout the inspection. Department/Agency and other
          customers’ needs also should be a consideration in selecting
          inspection topics.

          The planning standard is also intended to ensure that inspection
          topics are appropriately researched and that the objective(s)
          of the inspection are clearly understood. Research, work

12                       PCIE/ECIE Inspection and Evaluation Committee
        planning, and coordination should be thorough enough, within
        the time constraints of the inspection, to ensure that the
        inspection objectives are met. In pursuing this standard, the
        following should be appropriately addressed:

            1. Coordination—Inspection planning includes
               coordinating planned activities with other inspection,
               audit, and investigative entities, as well as appropriate
               organizations that could be affected by the activities.
               Internal and external constraints should be considered
               when planning inspection activities. Inspectors should
               be flexible in their plans, within reasonable limits. Any
               internal reviews performed by the entity to be inspected
               or by outside professional organizations should be
               considered and reviewed to determine applicability
               to the inspection. In addition, when an inspection
               addresses a topic that is cross-cutting or affects other
               governmental organizations, the OIG may consider
               conducting a joint or coordinated review with those
               other organizations’ OIGs.

            2. Research—Consistent with the inspection objectives,
               inspection research includes a review of existing data,
               discussions with program and other appropriate
               officials, literature research, and a review of pertinent
               websites and other internet accessible materials to
               gather information that will facilitate understanding of
               the program or activity to be inspected. Research
               should help to identify the criteria applicable to the
               evaluation of the program or activity. Examples of
               possible criteria include: laws, regulations, policies,
               procedures, technically developed standards or norms,
               expert opinions, prior periods’ performance,
               performance of similar entities, performance in the
               private sector, and best practices of leading
               organizations. Research should attempt to identify

January 2005/Quality Standards for Inspections                             13
             the results of previous reviews that may be relevant
             to the inspection, and inspectors should follow up on
             known significant findings and recommendations that
             directly relate to the current inspection. Inspectors
             need to assess the validity and reliability of the data
             gathered.

         3. Work plan—An inspection work plan should be
            developed that clearly defines the inspection
            objective(s), scope, and methodology. It may also
            include inspection time frames and work assignments.
            Adequate planning also entails ensuring that sufficient
            staff with the appropriate collective knowledge, skills,
            abilities, and experience is assigned to the inspection
            effort. As work on an inspection progresses, the work
            plan may need revision to address new information.

     During inspection planning, consideration should also be given
     to whether the inspection is likely to involve sensitive or
     classified information. If an inspection will or may involve
     sensitive or classified information, appropriate steps must be
     taken to ensure the proper protection of that information. The
     potential sensitivity or classification of information needs to
     be a consideration throughout the inspection process.




14                  PCIE/ECIE Inspection and Evaluation Committee
F.      DATA COLLECTION AND ANALYSIS

        The standard for inspection work is:


                The collection of information and data
                  will be focused on the organization,
                  program, activity, or function being
               inspected, consistent with the inspection
                  objectives, and will be sufficient to
                provide a reasonable basis for reaching
                              conclusions.

        With regard to collecting data, the following guidance should
        be addressed whenever appropriate:

            1. The sources of information should be described in
               the supporting documentation in sufficient detail so
               that the adequacy of the information, as a basis for
               reaching conclusions, can be assessed.

            2. Information should be of such scope and selected in
               such ways as to address pertinent questions about
               the objectives of the inspection and be responsive to
               the informational needs and interests of specified
               audiences.

            3. The procedures and mechanisms used to gather
               information should ensure that the information is
               sufficiently reliable and valid for use in meeting the
               inspection objectives. For example, inspectors need
               to ensure the validity and reliability of data obtained
               from computer-based systems that is significant to the
               inspectors’ findings. Inspectors will use professional
               judgment in determining whether information is
               sufficiently reliable and valid.

January 2005/Quality Standards for Inspections                           15
         4. Confidentiality, as appropriate, should be afforded to
            sources of information consistent with the Inspector
            General Act of 1978, as amended; the internal policies
            of each OIG; and other applicable laws and statutes.
            The Inspector General Act of 1978, as amended,
            states that the Inspector General shall not, without
            the consent of the employee or unless the Inspector
            General determines that such a disclosure is
            unavoidable, disclose the identity of a Department/
            Agency employee providing a complaint or
            information concerning the possible existence of an
            activity constituting a violation of law, rules, or
            regulations; mismanagement; waste of funds; abuse
            of authority; or a substantial and specific danger to
            the public health or safety. OIGs should develop and
            implement procedures for maintaining the
            confidentiality of individuals providing information.
            Inspectors must carefully monitor their actions and
            words to not inappropriately reveal the source of
            information.

         5. Appropriate safeguards should be provided for
            sensitive information, such as personal and proprietary
            data, as well as classified information. Inspectors
            General should ensure they have appropriate
            procedures for handling such information.

     In analyzing data, the following guidance should be considered:

         1. Data should be reviewed for accuracy and reliability;
            and, if necessary, the techniques used to collect,
            process, and report the data should be reviewed and
            revised to ensure the accuracy and reliability of
            inspection results.




16                  PCIE/ECIE Inspection and Evaluation Committee
            2. Qualitative and quantitative information gathered in
               an inspection should be appropriately and logically
               presented and documented in work papers, to ensure
               supportable interpretations.

            3. Inspection procedures should provide for supervisory
               review and other safeguards to protect the inspection
               findings and reports against distortion by the personal
               feelings and biases of any party to the inspection.

            4. Findings often have been regarded as containing the
               elements of criteria, condition, effect, and, when
               problems are found, cause. However, the elements
               needed for a finding depend entirely on the objectives
               of the inspection. Thus, a finding or set of findings is
               complete to the extent that the inspection objectives
               are satisfied and the report clearly relates those
               objectives to the applicable elements of a finding.


G.      EVIDENCE

        The standard for inspection work is:


                  Evidence supporting inspection findings,
                     conclusions, and recommendations
                    should be sufficient, competent, and
                   relevant and should lead a reasonable
                       person to sustain the findings,
                    conclusions, and recommendations.



        Evidence may take many forms, including physical, testimonial,
        documentary, and analytical. Physical evidence is obtained


January 2005/Quality Standards for Inspections                            17
     by an inspector’s direct review or observation of people,
     property, or events and should be appropriately documented.
     Testimonial evidence is obtained through inquiries, interviews,
     or questionnaires. Documentary evidence consists of created
     information, such as letters, contracts, grants, memorandums,
     and files. Analytical evidence includes computations,
     benchmarking, trending, comparisons, and rational arguments.

     The following guidelines should be considered regarding
     evidence:

         1. Evidence should be sufficient to support the inspection
            findings. In determining the sufficiency of evidence,
            inspectors should ensure that enough evidence exists
            to persuade a knowledgeable person of the validity
            of the findings.

         2. To be competent, evidence should be reliable and the
            best obtainable by using reasonable collection and
            evaluation methods. The following presumptions are
            useful in judging the competency of evidence:

             (a) Evidence obtained from an independent source
                 may be more reliable than that secured from an
                 organization being inspected.

             (b) Evidence developed under an effective system
                of internal controls generally is more reliable than
                that obtained where such controls are lacking or
                unsatisfactory.

             (c) Evidence obtained through direct physical
                 examination, observation, or computation may be
                 more reliable than evidence obtained through less
                 direct means.


18                  PCIE/ECIE Inspection and Evaluation Committee
                (d) Original documents generally are more reliable
                    than copies.

                (e) Testimonial evidence obtained from an individual
                    who is not biased or who has complete knowledge
                    about the area usually is more competent than
                    testimonial evidence obtained from an individual
                    who is biased or has only partial knowledge about
                    the area.

            3. Relevance refers to the relationship of evidence to its
               use. The information used to prove or disprove an
               issue must have a logical relationship with, and
               importance to, the issue being addressed.


H.      RECORDS MAINTENANCE

        The standard for inspection work is:

                   All relevant documentation generated,
                      obtained, and used in supporting
                    inspection findings, conclusions, and
                  recommendations should be retained for
                        an appropriate period of time.


        Supporting documentation is the material generated and
        collected as part of an inspection that, when effectively
        organized, provides an efficient tool for data analysis and a
        sound basis for findings, conclusions, and recommendations
        that address the inspection objectives. Supporting
        documentation should also provide:




January 2005/Quality Standards for Inspections                           19
              1. A record of the nature and scope of inspection work
                 performed; and

              2. Information to supervisors and team leaders enabling
                 them to properly manage inspections and evaluate the
                 performance of their staff. Supervisory and team
                 leader review should be evidenced in the inspection
                 documentation.

          Inspection organizations should establish policies and
          procedures for the safe custody and retention of inspection
          documentation. Inspection documentation should be retained
          and disposed of in accordance with applicable legal and
          administrative requirements and schedules, e.g., those
          established by the National Archives and Records
          Administration and the respective Department/Agency.
          Documentation generated by the Department/Agency and used
          to support inspection findings, such as lengthy reports, could
          be retained by the Department/Agency so long as the OIG
          fully references these documents and is confident that the
          documentation in question could not be lost, destroyed, or
          altered.

     I.   TIMELINESS

          The standard for inspection work is:


                  Inspections should strive to deliver
                significant information to appropriate
                   management officials and other
                    customers in a timely manner.




20                       PCIE/ECIE Inspection and Evaluation Committee
        To be of maximum use, inspections need to be conducted
        and reporting needs to be completed in a timely manner. This
        helps to ensure the work is current and relevant. During an
        inspection, it may be appropriate to provide interim reporting
        of significant matters to appropriate officials. Such reporting
        is not a substitute for a final report, but it does serve to alert
        the appropriate officials to matters needing immediate attention,
        so corrective action may be initiated. The following guidance
        should be considered regarding timeliness:

            1. Time frames should be flexible in response to changing
               priorities.

            2. Time frames established during planning are subject
               to change due to unforeseen circumstances, such as
               the need to expand the scope of an inspection or the
               need to add additional objectives.

J.      FRAUD, OTHER ILLEGAL ACTS ,              AND   ABUSE

        The standard for inspection work is:

                     In conducting inspection work,
                 inspectors should be alert to possible
                  fraud, other illegal acts, and abuse
                  and should appropriately follow up
                 on any indicators of such activity and
                       promptly present associated
                  information to their supervisors for
                   review and possible referral to the
                    appropriate investigative office.




January 2005/Quality Standards for Inspections                               21
     During an inspection, inspectors should be alert to any
     indicators of fraud, other illegal acts, or abuse (behavior that
     is deficient or improper when compared with behavior that a
     prudent person would consider reasonable and necessary
     business practice given the facts and circumstances). While
     the identification of such activities is not usually an objective
     of an inspection, it is necessary to have a clear understanding
     of the action required if such circumstances are discovered.

     Inspectors should be aware of vulnerabilities to fraud and abuse
     associated with the area under review in order to be able to
     identify possible or actual illegal acts or abuse that may have
     occurred. In some circumstances, conditions such as the
     following might indicate a heightened risk of fraud:

             1.    The absence of internal controls.

             2.    Inadequate “separation of duties,” especially
                   those that relate to controlling and
                   safeguarding resources.

             3.    Transactions that are out of the ordinary and
                   are not satisfactorily explained or
                   documented, such as unexplained adjustments
                   in inventories or other resources.

             4.    Missing or altered documents or unexplained
                   delays in providing information.

             5.    False or misleading information.

             6.    A history of impropriety, such as past reviews
                   with findings of questionable or criminal
                   activity.




22                   PCIE/ECIE Inspection and Evaluation Committee
        In pursuing indications of possible illegal acts or abuse,
        inspectors should exercise professional judgment so as to
        ensure they do not interfere with potential investigations and/
        or legal proceedings. If possible illegal behavior arises,
        inspectors should promptly present such information to their
        supervisors for review and possible referral to the appropriate
        investigative office.


K.      REPORTING

        The standard for inspection work is:

                     Inspection reporting shall present
                    factual data accurately, fairly, and
                      objectively and present findings,
                  conclusions, and recommendations in a
                             persuasive manner.


        Various means may be used to report on the results of
        inspection work, e.g., written reports, oral presentations,
        videos, or slide presentations. Regardless of the means used,
        there should be retrievable documentation of the reporting.
        The content of the reporting will be affected by the specific
        means used and the purpose it is serving. Reporting should
        be timely, complete, accurate, objective, convincing, clear,
        and concise.

        Inspection reporting normally should describe the objective(s),
        scope, and methodology of the inspection and state that the
        inspection was conducted in accordance with the “Quality
        Standards for Inspections.” Also, inspection reporting should
        provide the reader with the context in which the subject matter
        being inspected should be viewed, such as the impact or
        significance of the program/activity being reviewed, to help

January 2005/Quality Standards for Inspections                            23
     ensure the focus is not too narrowly drawn and to give clearer
     understanding of the impact of any report recommendations.
     Reporting language should be clear and concise and, while
     recognizing that some inspections deal with highly technical
     material, should be written in terms intelligible to the intended
     recipients and informed professionals.

     Inspection reporting frequently is structured in terms of findings,
     conclusions, and recommendations. Findings should be
     supported by sufficient, competent, and relevant evidence.
     Conclusions should be logical inferences about the inspected
     program or activity based on the inspection findings. Typically,
     each finding requiring corrective action should be addressed
     by one or more recommendations directed to the management
     official(s) who have the authority to act on them.
     Recommendations normally should not be prescriptive in
     nature; rather, they should be crafted in a manner that lays out
     what needs to be corrected or achieved. When appropriate,
     inspectors should solicit advance review and comments from
     responsible officials regarding the content of the report and
     should include the comments or a summary thereof in the
     report.

     Care must be taken to ensure that, as applicable, the
     confidentiality of individuals providing information is
     appropriately maintained in the inspection reporting process.

     Written inspection reports should be distributed to the
     appropriate officials responsible for taking action on the findings
     and recommendations. Further distribution will be subject to
     the internal policies of each OIG and fully comply with all
     requirements contained in the Privacy Act; the Freedom of
     Information Act; and security and other applicable laws,
     regulations, and policies.




24                   PCIE/ECIE Inspection and Evaluation Committee
L.      FOLLOW-UP

        The standard for inspection work is:


                        Appropriate follow-up will be
                        performed to assure that any
                    inspection recommendations made to
                      Department/Agency officials are
                         adequately considered and
                          appropriately addressed.


        Ultimate inspection success depends on whether necessary
        corrective actions are actually completed. Therefore, each
        OIG should take steps, as necessary, to determine whether
        officials take timely, complete, and reasonable actions to
        correct problems identified in inspection reports and agreed
        on by management. Specific follow-up actions shall be guided
        by the follow-up and resolution policies of each OIG, in
        accordance with Office of Management and Budget Circular
        No. A-50, as amended.

        Follow-up helps ensure actions are undertaken and completed
        within a reasonable time. Management notification that an
        action has been completed within the agreed-on time
        constitutes reasonable assurance and can be the basis for
        “closing” an action for follow-up purposes. However, the
        OIG should perform, as appropriate, follow-up work to verify
        whether agreed-on corrective actions were fully and properly
        implemented. When planning follow-up activities, OIGs
        should assess whether the work would be most effectively
        accomplished utilizing the staff that conducted the original
        work or other staff members. Also, in planning and conducting
        new inspections, prior recommendations that relate to the new
        inspection should be considered and followed up on to the
        extent practicable.

January 2005/Quality Standards for Inspections                          25
     M.   PERFORMANCE MEASUREMENT

          The standard for inspection work is:


                  Mechanisms should be in place to
                measure the effectiveness of inspection
                                work.


          Consistent with the intent of the Government Performance
          and Results Act of 1993, it is important to be able to
          demonstrate the positive results that inspections contribute to
          the more effective management and operation of Federal
          programs. The nature and extent of performance measurement
          will be affected by a number of factors, such as the size and
          structure of the organization performing inspections. For
          example, measures may be established that capture inspection
          results collectively with other OIG activities, such as a measure
          that addresses both audit and inspection report
          recommendations. Performance measurement should focus
          on the outputs and the resultant outcomes from inspection
          work. Optimum performance measurement captures the
          impact of an inspection and may include such things as
          monetary savings, enforcement of laws, or legislative change.


     N.   WORKING RELATIONSHIPS AND COMMUNICATION

          The standard for inspection work is:

               Each inspection organization should
                seek to facilitate positive working
                    relationships and effective
             communication with those entities being
              inspected and other interested parties.

26                        PCIE/ECIE Inspection and Evaluation Committee
        The OIG and the Department/Agency should strive to do the
        following:

            1. Foster open communication at all levels. With limited
               exceptions, primarily related to investigative-type
               work, the OIG should keep the Department/Agency
               advised of its work and its findings on a timely basis
               and strive to provide information helpful to the
               Department/Agency at the earliest possible stage.
               Surprises are to be avoided.

            2. Interact with professionalism and respect. OIGs should
               act in good faith.

            3. Recognize and respect the mission and priorities of
               the Department/Agency. Each OIG should work to
               carry out its functions with a minimum of disruption to
               the primary work of the Department/Agency.

            4. Be thorough, objective, and fair. The OIG must
               perform its work thoroughly, objectively, and with
               consideration to the Department’s/Agency’s point of
               view and should recognize Department/Agency
               successes in addressing challenges or issues.

            5. Be engaged. While maintaining OIG statutory
               independence of operations and recognizing that
               OIGs need to conduct work that is self-initiated,
               congressionally requested, or mandated by law, OIGs
               should interact with Department/Agency management
               to identify any specific needs or priorities management
               may have regarding the reviews to be conducted by
               the respective OIG.

            6. Be knowledgeable. The OIG will continually strive
               to keep abreast of Department/Agency programs and

January 2005/Quality Standards for Inspections                           27
             operations, and Department/Agency management
             should be kept appropriately informed of OIG
             activities and concerns being raised in the course of
             OIG work.

         7. Provide feedback. OIGs should implement
            mechanisms, both formal and informal, to ensure
            prompt and regular feedback.

     Specific to inspection work, inspectors should appropriately
     communicate information about the inspection process and
     the nature of the inspection to the various parties involved in
     the inspection to help them understand such things as the
     inspection objective(s), time frames, data needs, and reporting
     process. Inspectors should use their professional judgment
     and comply with their respective organization’s policies and
     procedures to determine the form, content, and frequency of
     communication. Communication should be appropriately
     documented in the associated inspection records.




28                  PCIE/ECIE Inspection and Evaluation Committee
                                                       APPENDIX 1

GUIDE FOR CORE COMPETENCIES FOR
INSPECTION ORGANIZATIONS AND INSPECTORS
This guide was developed by the Inspector General community to
identify the core competencies that each inspection organization should
strive to have as an organization, as well as the competencies that are
desirable for a journeyman inspector and senior management.

Organizational Competencies

•       Leadership

        ü   Vision
        ü   Continual Learning
        ü   Results Orientation
        ü   Integrity

•       Team Skills

        ü Team Problem Solving
        ü Time Management

•       Management

        ü Accountability
        ü Customer Service
        ü Strategic Thinking

•       Occupational Mastery

        ü     Department/Agency and Mission Knowledge
        ü     Oral Communication
        ü     Written Communication




January 2005/Quality Standards for Inspections                            29
     Journeyman Level Competencies

     •     Leadership

           ü Results Orientation
           ü Integrity

     •     Team Skills

           ü Team Problem Solving
           ü Time Management

     •     Management

           ü   Project Management
           ü   Strategic Thinking

     •     Occupational Mastery

           ü   Department/Agency and Mission Knowledge
           ü   Evaluation Methods and Techniques
           ü   Oral Communication
           ü   Written Communication

     Senior Management Competencies

     •     Leadership

           ü    Vision
           ü    Political Skills
           ü    Influencing/Negotiation with External Groups
           ü    Results Orientation
           ü    Leading People
           ü    Integrity




30                       PCIE/ECIE Inspection and Evaluation Committee
•       Team Skills

        ü Team Problem Solving
        ü Time Management

•       Management

       ü     Accountability
       ü     Decisiveness
       ü     Strategic Thinking

•       Occupational Mastery

        ü    Department/Agency and Mission Knowledge
        ü    Oral Communication




January 2005/Quality Standards for Inspections         31
                                                                        APPENDIX 2

     GUIDE FOR
     GENERAL SKILL LEVELS FOR INSPECTORS*

                                                                     GS Number
                           Skills                    5       7      9    11    12          13      14

       1.    OIG statutes, regulations,
             policies, & procedures                  X       X      X       X       X      X       X
       2.    Ethics code of conduct                  X       X      X       X       X      X       X
       3.    Basic research                          X       X      X       X       X      X       X
       4.    Computer applications                   X       X      X       X       X      X       X
       5.    Data collection techniques              X       X      X       X       X      X       X
       6.    Data analysis                           X       X      X       X       X      X       X
       7.    Use of computers                        X       X      X       X       X      X       X
       8.    Disclosure & Privacy Act                X       X      X       X       X      X       X
       9.    Fraudulent, abusive & illegal acts      X       X      X       X       X      X       X
       10.   Documenting support                     X       X      X       X       X      X       X
       11.   Interviewing                                    X      X       X       X      X       X
       12.   Basic report writing                                   X       X       X      X       X
       13.   Administrative process                                 X       X       X      X       X
       14.   Inspection work plans                                  X       X       X      X       X
       15.   Designing survey instruments                                   X       X      X       X
       16.   Statistical sampling                                           X       X      X       X
       17.   Site selection and approving
             records for field work                                         X       X      X       X
       18.   Advanced report writing                                        X       X      X       X
       19.   Packaging inspection reports                                   X       X      X       X
       20.   Training inspection team members                                       X      X       X
       21.   Briefings                                                              X      X       X
       22.   Marketing inspection products                                          X      X       X
       23.   Legislative process                                                    X      X       X
       24.   Departmental budget process                                            X      X       X
       25.   Managing & coordinating
             inspection team activity                                                      X       X
       26.   Preparing congressional testimony                                             X       X
       27.   Dealing with the media, public,
             & industry                                                                    X       X


     *This appendix is intended as a guide only. It is recognized that, among other things, grade
     structure and position descriptions for staff vary between OIGs, which can affect the applicability
     of the guidance contained herein.
32                                PCIE/ECIE Inspection and Evaluation Committee
